Audit of USAID/Zambia’s Monitoring of the
Performance of Its HIV/AIDS Program

Audit Report Number 9-611-01-004-P

September 17, 2001




                Washington, D.C.

U.S. AGENCY FOR
INTERNATIONAL
 DEVELOPMENT

Performance Audits Division

September 17, 2001


MEMORANDUM
FOR:      	       USAID/Zambia Director, Allan E. Reed

FROM:	            IG/A/PA Director, Dianne L. Rawl

SUBJECT:	         Audit of USAID/Zambia’s Monitoring of the Performance of Its
                  HIV/AIDS Program (Report No. 9-611-01-004-P)


This is our final report on the subject audit. In finalizing this report, we
considered management’s comments on our draft report. We have included
those comments, in their entirety, as Appendix II.

This report contains one procedural recommendation that has two subparts.
Based on your response to our draft report we do not consider Recommendation
Nos. 1.1 or 1.2 to have received a management decision. Consequently, we
request that you provide written notice within 30 days relating to actions taken,
or planned with accompanying target dates, to complete the corrective actions
for both subparts of the recommendation.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                    1
Table of
   Summary of Results                                             3

Contents

            Background                                                     4


            Audit Objectives                                               5


            Audit Findings


                   Did USAID/Zambia monitor performance of its HIV/        6

                   AIDS program in accordance with Automated Directives

                   System (ADS) guidance?


                            Data Quality Assessments Should Be Performed   6

                            and Documented


                   Is USAID/Zambia achieving intended results from its     10

                   HIV/AIDS program?


                   What is the status of USAID/Zambia’s efforts to meet    17

                   anticipated HIV/AIDS reporting requirements?


            Other Matters                                                  18


            Management Comments and Our Evaluation                         19


            Appendix I - Scope and Methodology                             21


            Appendix II – Management Comments                              23


            Appendix III –Rapid Scale-Up and Intensive Focus               25

            Countries


            Appendix IV – Summary of USAID/Zambia’s Performance            26

            Monitoring Controls





                                                                                 2
Summary of   USAID funding for HIV/AIDS has increased dramatically over the last three
Results      years−from $142 million in fiscal year 1999 to over $300 million in fiscal year
             2001. This increase in funding has created a demand for greater accountability
             on the part of USAID and its operating units, both as to monitoring progress
             and achieving intended results. (See pages 4-5.)

             USAID procedures for monitoring programs, including its HIV/AIDS
             programs, are contained in its Automated Directives System (ADS). The ADS
             sets forth requirements that operating units must follow in managing their
             programs, such as the establishment of indicators, identification of data
             sources, and planned methods by which data are to be collected. We tested
             USAID/Zambia’s monitoring of its HIV/AIDS program against eleven controls
             contained in the ADS. USAID/Zambia had implemented ten of the eleven
             controls and had partially implemented the eleventh. We recommend that
             USAID/Zambia fully implement the eleventh control by performing and
             documenting data quality assessments for all indicators. (See pages 6-9.)

             Results-oriented management must be used to reasonably ensure that programs
             achieve their intended results. USAID/Zambia uses three indicators−condom
             sales, condom use, and sexually transmitted infections (STI) diagnosis and
             treatment−to measure results in its HIV/AIDS program. A review of the three
             indicators showed that the Mission was achieving the intended results with
             regard to the first two indicators, but not the third. The inability to reach the
             intended results in this third program area appeared to be due to circumstances
             beyond USAID/Zambia’s control. Therefore, we are not recommending that
             USAID/Zambia take any corrective actions in that regard. (See pages 10-16.)

             To improve the monitoring process for its HIV/AIDS program, USAID has
             drafted a “Monitoring and Evaluation Guidance” USAID’s Expanded
             Response to the Global HIV/AIDS Pandemic. The Guidance establishes
             several global targets USAID expects to achieve because of the additional
             funding it anticipates receiving and requires missions to routinely monitor and
             evaluate their HIV/AIDS programs using standard indicators. As a recipient of
             significant additional funding, USAID/Zambia is preparing to meet these
             additional monitoring requirements. The results of our review indicate that the
             Mission should be able to meet its requirements under the new Guidance. (See
             pages 17-18.)

             Credit sales for condoms under a social marketing program were not being
             collected in a timely manner. This resulted in a loss of funds that could have
             been used to further the program and increased the risk of irregularities against
             cash and assets. Consequently, we suggest that USAID/Zambia closely
             monitor the collection of overdue accounts receivable. (See page 18.)



                                                                                             3
Background
   USAID funding for HIV/AIDS has increased dramatically over the past three
              years−from $142 million in fiscal year 1999 to over $300 million in fiscal year
              20011 (see graph below). USAID is organizing its response to HIV/AIDS
              around the following three categories of countries: rapid scale-up, intensive
              focus, and basic. These categories were developed based on 1) the amount of
              resources that USAID intends to apply and 2) expectations as to when a
              measurable impact might be achieved. For example, USAID defines rapid
              scale-up countries as those that will receive a significant increase in resources
              to achieve measurable impact within one to two years. (See Appendix III for a
              more complete description of these categories.)


                                                                USAI
                                                                USAID
                                                                    D’s HIV
                                                                        HIV/AID
                                                                            AIDS Funding

                                                                          By Fiscal Year

                                                                                      ar

                                                          350
                                                          300
                                                          250
                                    Millions of Dollars




                                                          200

                                                          150
                                                          100
                                                          50
                                                           0
                                                                   1999         2000        2001



              Zambia, a landlocked country in Southern Africa with a population of
              about 10 million, is one of four rapid scale-up countries. HIV/AIDS is
              a major public health problem in Zambia, with an estimated prevalence
              rate of about 20 percent as reported by Zambia’s Ministry of Health.
              Two transmission mechanisms account for most of the new HIV
              infections in Zambia−heterosexual contact and perinatal transmission.
              Several factors contribute to the rapid spread of HIV/AIDS in Zambia.
              These include a high prevalence of other sexually transmitted infections
              (STIs), a norm of multiple sexual partners, low condom use, cultural
              beliefs, poverty, poor health status, and the low social and economic
              status of women. According to USAID/Zambia, Mission funding for
              HIV/AIDS and related programs for fiscal year 2000 was about $9.6
              million.



              1
                  Information was provided by USAID and is unaudited.

                                                                                                   4
                       There has been much interest in monitoring the impact of USAID assistance on
                       the HIV/AIDS epidemic. In March 2000, USAID published a handbook that
                       discusses standard indicators for monitoring and evaluating HIV/AIDS
                       programs, and in February 2001, USAID issued draft “Monitoring and
                       Evaluation Guidance” USAID’s Expanded Response to the Global HIV/AIDS
                       Pandemic, which summarizes new reporting requirements for USAID’s
                       HIV/AIDS program. In March 2001, the U.S. General Accounting Office
                       (GAO) issued a report on USAID’s fight against HIV/AIDS in Africa.2 The
                       GAO report observed that USAID had contributed to the fight against
                       HIV/AIDS in sub-Saharan Africa, but that missions and regional offices used
                       inconsistent indicators to measure performance, data collection was sporadic,
                       and there was no requirement for missions and regional offices to regularly
                       report the data they collect. GAO recommended that USAID select standard
                       indicators, gather performance data on a regular basis, and report this data to a
                       unit, to be designated by the USAID Administrator, for analysis.




Audit Objectives
 This audit is the first of a series of audits to be conducted worldwide of USAID’s
                       monitoring of the performance of its HIV/AIDS program at the operating unit
                       level. The audits will be conducted by USAID’s Office of Inspector General.

                       The audit objectives and the scope and methodology for the audit were developed
                       in coordination with USAID's HIV/AIDS Division in the Bureau for Global
                       Programs, Field Support and Research. The Office of Inspector General
                       performed this audit in Zambia to review USAID/Zambia’s HIV/AIDS program
                       and specifically, to answer the following audit objectives:

                       •	 Did USAID/Zambia monitor performance of its HIV/AIDS program in
                          accordance with Automated Directives System (ADS) guidance?

                       •	 Is USAID/Zambia achieving intended results from its HIV/AIDS program?

                       •	 What is the status of USAID/Zambia’s efforts to meet anticipated HIV/AIDS
                          reporting requirements?

                       Appendix I describes the audit’s scope and methodology.




                       2
                         U.S. Agency for International Development Fights AIDS in Africa, but Better Data Needed
                       to Measure Impact (GAO-01-449, March 2001).

                                                                                                                   5
Audit Findings
   Did USAID/Zambia monitor performance of its HIV/AIDS program in
                  accordance with Automated Directives System (ADS) guidance?

                  USAID/Zambia generally monitored performance of its HIV/AIDS program in
                  accordance with USAID’s ADS. The ADS outlines USAID's policies and
                  procedures for implementing a performance monitoring system. However, one
                  aspect of the Mission’s performance monitoring system that should be improved
                  was the performance and documentation of data quality assessments for all of its
                  key HIV/AIDS indicators.

                  USAID/Zambia's Performance Monitoring Plan (PMP) included the following

                  three performance indicators which it used to monitor its HIV/AIDS activities:

                  (1) Condom Use, (2) Number of “Maximum” Brand Male Condoms Sold, and
                  (3) Sexually Transmitted Infections (STI) Diagnosis and Treatment. In
                  accordance with the ADS, the Mission prepared a detailed PMP that included
                  most of the required information, such as indicator descriptions, data sources,
                  data collection methods, data collection schedules, assignment of responsibility,
                  and disclosure of data limitations. In addition, the Mission established baselines
                  for the indicators in the plan and reported data for the indicators which agreed
                  with the data sources specified in the plan. The Mission also used other
                  monitoring tools such as independent surveys and reports as a further check of
                  data consistency. (See Appendix IV.)

                  However, the Mission did not perform and document data quality assessments for
                  all of its key HIV/AIDS indicators.

                  Data Quality Assessments Should Be Performed and Documented

                  USAID policy, as articulated in its ADS, requires that data quality assessments be
                  performed at least every three years for all indicators reported in USAID’s annual
                  operating units’ Results Review and Resource Request (R4) reports and for other
                  data included “in special reports to Congress or other oversight agencies.” Such
                  assessments are intended to ensure that performance information is sufficiently
                  complete, accurate, and consistent. The guidance further notes that, when
                  conducting data quality assessments, operating units must:

                  •	 verify and validate performance information to ensure that data are of

                     reasonable quality;


                  •	 review data collection, maintenance, and processing procedures to ensure that
                     they are consistently applied and continue to be adequate; and




                                                                                                       6
•	 retain documentation of the assessment in performance management files - a
   requirement that is in accord with general Federal requirements to document
   significant events and to retain such documentation for future examination.

The ADS further notes that “Meeting requirements for data quality assessments
need not be excessively onerous….” The ADS goes on to say that the
requirement might be met by activities such as:

•	 reviewing partner reports;

•	 making site visits to spot check for reliability; or

•	 holding discussions with data source agencies on quality assurance
   procedures, provided these discussions are sufficiently detailed, cross
   checked and well documented.

In any case, the goal of a data quality assessment is to ensure that one is aware of
data strengths and weakness and the extent to which data can be trusted when
making management decisions.

However, of the three HIV/AIDS performance indicators we reviewed, the
Mission did not perform data quality assessments for one of the indicators,
“Number of…Condoms Sold,” and did not document data quality assessments
for the other two indicators, “Condom Use” and “STI Diagnosis and Treatment.”
While only the first of these three indicators currently appears in
USAID/Zambia’s R4 report, we believe that the Mission should nevertheless
assess and document the data quality of all key HIV/AIDS indicators. While the
ADS requirement to do assessments of data outside of those reported in the R4, is
not entirely clear, we believe that data quality assessments are an important
management control in ensuring that results are reliable. In addition, with
increased funding for HIV/AIDS and with expanded reporting requirements (see
third audit finding below), we believe that it is even more urgent that missions
ensure that the data collected for all key indicators used to manage their
HIV/AIDS programs is reliable. Indeed, the ADS also notes that “prudence
dictates that managers be fully aware of the strengths and weaknesses of the data
they use.” Performing periodic data quality assessments−and documenting the
results−will help ensure that such strengths and weaknesses are recognized.

The following is a brief discussion of the three indicators which USAID/Zambia
used to monitor its HIV/AIDS activities and the entities that collected the data for
these indicators.

Condom Sales - The Society for Family Health (SFH) is a non-government
organization (NGO) responsible for managing the social marketing program for
Maximum-brand condoms in Zambia and for collecting data on condom sales.


                                                                                   7
Marketing takes place through a distribution system that ensures that Maximum
condoms are available through a variety of large and small retail outlets.

We were unable to trace to original documents the aggregated data reported to the
Mission for calendar year 2000 under the indicator, “Number of Maximum Brand
Condoms Sold.” However, SFH recently instituted new procedures for calendar
year 2001 that appear to adequately address these problems. These procedures
include a new dual accounting system. This system allows the main office in the
capital city to compare its data against that reported by its regional offices prior to
the final monthly posting, thereby eliminating the need to document adjustments
to condom sales and providing an audit trail showing how the aggregated sales
totals were computed. The grantee has also initiated a new filing system. While
we did not find evidence that would lead us to question the accuracy of the sales
data reported for calendar year 2000, we do have a concern about uncollected
accounts receivable (see discussion - Other Matters - page 18) and believe the
Mission should, in accord with ADS guidance, make its own assessment of the
quality of the data.

Condom Use and STI Diagnosis and Treatment - The biennial Zambia Sexual
Behavior Survey (ZSBS) is the vehicle used to monitor results for the two other
indicators−Condom Use and STI Diagnosis and Treatment. The Zambia Central
Statistical Office, a quasi-governmental entity, conducts the survey under a
contract with a U.S. university which has a cooperative agreement with
USAID/Washington to conduct surveys of changes in sexual behavior
worldwide.

USAID/Zambia was not able to provide written documentation of the
assessments it said it had performed on data collected by the ZSBS for these two
indicators. Mission personnel, however, were able to describe orally what actions
they had taken to ensure that data were reliable. They described their oversight
actions before and during the survey process, and their subsequent involvement
during data analysis. They were also aware of the procedures that were used to
ensure that interviewers were trained, data collection procedures were checked,
protocols were followed, and data entry was correct. Even though documentation
was not available, it appears that the Mission had in fact assessed data quality.

Mission officials gave a number of reasons for not performing data quality
assessments, or for not documenting them. With regard to not performing an
assessment on the indicator, “Number of Condoms Sold,” reasons included:
1) the Mission’s reliance on the grantee, Society for Family Health, to ensure data
quality, and 2) the fact that Mission personnel did not understand the extent of
testing or monitoring procedures required to validate the accuracy of the data.
With regard to not documenting assessments for the other two indicators, Mission
officials stated that data quality assessments were conducted for the Condom Use
and STI Diagnosis and Treatment indicators but that Mission personnel had
simply not documented their actions.

                                                                                     8
Another possible cause for the lack of data quality assessments and/or
documentation for the three indicators discussed above might be attributed to the
fact that the PMP did not describe how or how often these assessments were to be
done. The Plan did not discuss what the Mission planned to do to assess each
indicator nor what actions would be the responsibility of the NGO or the grantee.

Data quality assessments are a key element of USAID's performance monitoring
system. Without such assessments the quality of data being collected and
reported is simply assumed and data limitations, if any, are not documented and
recognized. As a result, flawed data may be reported and erroneous management
decisions could be made based on defective data. Documenting such assessments
helps ensure that they are done and that the results of Mission assessments are
available to successive managers.

A requirement to include a description of how assessments were to be done in the
PMP is a new ADS requirement and was not effective until after our audit work
was completed.3 Nevertheless, in addition to our recommendation for performing
and documenting assessments we are recommending that the PMP be amended in
line with this new requirement to describe how the Mission plans to perform data
quality assessments for each of the key HIV/AIDS indicators in the PMP.


      Recommendation No. 1: We recommend that USAID/Zambia:

          1.1	 perform and document data quality assessments for the
               indicator “Number of Maximum Brand Condoms
               Sold,” and modify the Performance Monitoring Plan to
               describe actions USAID/Zambia will take to assess data
               quality for all HIV/AIDS indicators; and

          1.2	 perform data quality assessments for all other
               HIV/AIDS indicators and maintain documentation of
               such in the Mission’s files.




3
 The new PMP requirements were added to the ADS as of September 1, 2000 and became
effective on June 1, 2001.

                                                                                     9
Is USAID/Zambia achieving intended results from its HIV/AIDS
program?

In fiscal year 2000, USAID/Zambia achieved its targets for condom sales and
condom use. Although the Mission did not achieve its target for STI diagnosis
and treatment, we believe this was due, for the most part, to circumstances
beyond the Mission’s control. Consequently, we are not including a
recommendation in this report that USAID/Zambia take action to correct this
situation. Intended results were not achieved for STI diagnosis and treatment
due to the host government’s banning of health care training programs and the
unavailability of STI drugs. As a result, an undetermined number of
individuals with sexually transmitted infections did not receive needed
diagnosis and treatment.

Office of Management and Budget (OMB) Circular A-123 requires that
agencies and individual Federal managers take systematic and proactive
measures to develop and implement management controls for results-oriented
management. It goes on to state that management controls are the policies and
procedures used to reasonably ensure that programs achieve their intended
results. These controls consist of establishing indicators to manage for results,
collecting baseline data for these indicators prior to project intervention, setting
targets for these indicators, periodically collecting data to monitor results, and
assessing the quality of the data being collected.

USAID/Zambia used three key indicators to manage its HIV/AIDS program:

•	 condom sales by year;

•	 condom use during last sexual act with a non-regular partner; and

•	 sexually transmitted infections (STIs) properly diagnosed and treated
   according to standard treatment guidelines.

According to data gathered by USAID/Zambia to monitor its HIV/AIDS
program, with regard to the first two indicators−condom sales and condom
use−the Mission achieved its intended results, but with regard to the
third−diagnosis and treatment of sexually transmitted infections−it did not.

Condom Sales - Because heterosexual contact is the main form of transmission
of HIV/AIDS in Zambia, condom accessibility and use are major components of
the USAID/Zambia HIV/AIDS program. The Mission’s social marketing
program to increase the accessibility of condoms through private sector sales has
been in effect since 1992. While condom sales are not a perfect proxy of condom
use, the Mission believes condom sales are still a reasonable indicator of
behavioral intention.

                                                                                 10
To increase accessibility to condoms, the Mission, through a local NGO partner,
designed a marketing strategy to increase sales of condoms to urban and
suburban youth. A national distribution network was established, and both
traditional and non-traditional outlets (supermarkets, groceries, kiosks,
nightclubs, bars, etc.) were identified as effective marketing locales. Using
market research techniques, the brand name Maximum was developed.

Applying social marketing techniques, the NGO launched its brand name and
developed strategies to expand consumer confidence in its product. This strategy
resulted in high name recognition for Maximum throughout the country.




   Sign outside bar in Livingston, Zambia, advertising Maximum brand condoms, sold as
   part of a USAID-funded social marketing program (April 2001)



Sales data are provided by the NGO from a sales database, which is part of the
inventory management system. According to the NGO, data are to be verified
through the reconciliation of sales figures with bank accounts and inventory
figures and with spot checks of sales invoices. Annual targets and actual sales
can be seen in the following chart.




                                                                                        11
                                    Annual Condom Sales
                  Year
                                          (Millions)
                                   Target            Actual
                   1993             N/A               4.7
                   1994              5.8              6.2
                   1995              6.0              6.3
                   1996              6.5              6.5
                   1997              7.0              5.8
                   1998              7.3              5.3
                   1999              8.0              6.6
                   2000              7.5              8.6


USAID/Zambia’s condom sales program was initiated in 1992, and condom sales
have grown from 4.7 million in 1993 to 8.6 million in 2000. The sales target for
fiscal year 2000 was 7.5 million condoms. Because fiscal year 2000 condom
sales of 8.6 million well exceeded the targeted level of 7.5 million, and
represented an almost two-fold increase over the baseline 1993 sales figure, the
Mission achieved its intended results in condom sales for fiscal year 2000. Data
on condom use (see section below) and overall survey results further support this
conclusion.4 However, during our review of condom sales, we noticed some
problems with the program’s accounts receivable which are discussed under
Other Matters on page 18.

Condom Use - Establishing safer sexual behavior has probably been the most
important area of programming for most national HIV/AIDS programs to date.
Programs seek to delay first sex among young people and encourage lifelong,
mutually monogamous partnerships. Because such partnerships are more the
exception than the norm in many cases, programs also encourage reducing the
overall number of sexual partners and using condoms, especially with partners
other than one’s spouse.

USAID/Zambia has several programs designed to encourage condom use. One
example is the cross-border initiative, which targets high-risk groups such as sex
workers and truck drivers at several Zambian highway border crossings. Peer
educators visit local bars and other locations that attract individuals involved in
high-risk sexual behavior. Counseling is provided concerning condom use as
well as the availability of STI medical screening and treatment.




4
 According to the Mission, sales in 1997-1999 did not achieve anticipated results because of a
Government of Zambia restriction on the advertising of condoms.

                                                                                            12
       Street entertainers attract crowds, then offer skits and lectures on HIV/AIDS
       prevention, as part of USAID-funded Cross-Border Initiative. (April 2001)




       USAID-funded peer educators counsel sex workers on lifestyles and health
       Matters in Livingston, Zambia. (April 2001)



Condom use is measured by the percent of persons who report the use of a
condom during their last sexual act with a non-regular sex partner. This data is
collected countrywide by a USAID/Zambia-funded biennial survey called the
Zambian Sexual Behavior Survey. The survey is a population-based behavioral
and health facility survey that costs about $400,000. Data quality is assessed
through field checks of data collection procedures, review of the data entry



                                                                                       13
process, and hand corrections during data-set cleaning. Biennial targets and
actual use can be seen in the following chart.


                              Percent of Persons Using
                  Year      Condoms During Last Sexual
                            Act With Non-Regular Partner
                               Target          Actual
                                              24 Female
                  1998          N/A
                                               33 Male
                             28 Female        34 Female
                  2000
                              35 Male          40 Male


Fiscal year 2000 survey results showed actual condom use during last sexual act
with a non-regular partner at 34 percent for females and 40 percent for males.
These levels were well above the indicator target levels for condom use of 28
percent for females and 35 percent for males set by USAID/Zambia. Based on
this data, along with the data for condom sales and other survey data,
USAID/Zambia achieved its intended results for condom use in fiscal year 2000.

The HIV/AIDS program in Zambia has produced positive results due to the
combined efforts of USAID and other international donors. For example:

•	 A sentinel surveillance report published in 1999 stated that at four sites in
   Lusaka, the capital city, there was an average decline in HIV prevalence rates
   in women in the 15 to 19 age group from 28 percent to 15 percent over a five
   year period. A similar trend was also found in some rural areas.

•	 Declining HIV prevalence and risk behaviors in Zambia during the 1990s is
   shown in a national surveillance and population-based survey. This report
   stated that prevalence was reduced among urban women aged 15 to 29 from
   28 percent to 24 percent. Prevalence among rural women aged 15 to 24 was
   reduced from 16 percent to 12 percent.

•	 Urban men and women reported less sexual activity, fewer multiple partners,
   and more consistent use of condoms. The proportion of urban men aged 15
   to 19 who report engaging in sexual activity in the previous 12 months
   declined from 47 percent to 23 percent, and the proportion with two or more
   sexual partners fell form 52 percent to 38 percent.

•	 Zambia Sexual Behavior Survey reported an increase in the percentage of
   individuals that said they used a condom during their last sexual act with a
   non-regular partner (as shown in the chart above).



                                                                                  14
•	 SFH reported an increase in the number of condoms sold from 5.3 million in
   1998 to 8.6 million in 2000.

We recognize that behavior in populations changes over time, but it appears that
those changes are occurring, and, at least among the younger segment of the
population, HIV/AIDS prevalence is declining.

STI Diagnosis and Treatment - USAID/Zambia did not achieve intended
results in the third program area we reviewed. The indicator for this area
measures the percentage of persons with STIs properly treated, according to
standard treatment guidelines, at selected health facilities. We believe the failure
to achieve intended results was due for the most part to circumstances beyond the
Mission’s control.

STIs are a major health problem in many countries, including Zambia. Because
the presence of STIs increases the likelihood of HIV transmission, the advent of
AIDS has led to a new push to treat and prevent STIs. Toward this end,
USAID/Zambia promotes a basic diagnostic technique that substitutes an
examination and interview approach for expensive and, often unavailable,
laboratory testing. Properly trained personnel will conduct the examination and
interview and determine if a STI is part of the diagnosis. This approach requires
a large investment in training for nurses and other health workers.

Until 1998, the Mission supported a program that trained approximately 100
health workers in STI care management. It was on the basis of this training
program that the indicator was formulated and the baseline and targets
established. The indicator baseline and indicator targets were established from a
1995 survey in one province. A follow-up survey, in that province, in 1996
provided actual data for that year. Actual data for 1998 and 2000 were collected
countrywide by the Zambia Sexual Behavior Survey. This is the same survey
discussed above concerning condom use.

USAID/Zambia has not had a significant STI management training program
since 1998. In 1998, a combination of a Government of Zambia policy restricting
health care training programs and the failure of another donor to provide
anticipated STI drugs made continuation of the training program impractical.

Survey results were mixed, as can be seen from the following chart showing
targets and the percentage of Zambian STI patients receiving acceptable
treatment.




                                                                                  15
                                     Percent of Persons Receiving
            Year               Acceptable STI Diagnosis and Treatment at
                                       Selected Health Facilities
                                 Target                      Actual
             1996*                 15                           18
             1998                  25                           19
             2000                  40                           10

               *survey results from one province only




While the survey results for the indicator were disappointing for the year 2000,
we believe the limited STI training held between 1998 and 2000−due in part to
the unavailability of drugs during that time period−was probably the main reason
for the overall drop. USAID/Zambia will initiate new STI training programs in
fiscal year 2001. In addition, another donor is expected to provide STI drugs.
Based on these conditions, we are not making any recommendations.




      Health clinic in Livingston, Zambia offers USAID-funded STI diagnosis and
      treatment. (April 2001)




What is the status of USAID/Zambia’s efforts to meet anticipated
HIV/AIDS reporting requirements?


                                                                                  16
Our review indicates that USAID/Zambia should be able to meet future
HIV/AIDS reporting requirements in USAID’s newly-drafted guidance.

Due to the significant increase in HIV/AIDS funding from 1999 to 2001, there
has been a great deal of interest in monitoring the results of USAID’s
assistance in this area. In March 2000 USAID's Global Bureau developed a
handbook of standard indicators that operating units could use to measure the
progress of their HIV/AIDS programs. In March 2001, the U.S. General
Accounting Office (GAO) issued its report on USAID’s fight against AIDS in
Africa, which reported the need to be able to better monitor progress (see page
5). In its report GAO recommended that USAID’s operating units adopt
standard indicators to measure program performance, gather performance data
on a regular basis, and report data to a central location for analysis.

To improve the monitoring process for its HIV/AIDS program, USAID has
drafted a “Monitoring and Evaluation Guidance” USAID’s Expanded
Response to the Global HIV/AIDS Pandemic. This new guidance establishes
several global targets USAID expects to achieve with its additional funding
and requires missions to routinely monitor and evaluate their HIV/AIDS
programs in a definitive, systematic way and to report on their progress. As a
“rapid scale-up country,” the draft guidance would require USAID/Zambia to
implement this enhanced monitoring and reporting system. The system would
collect and report information at three levels:

•	 At the first level, USAID/Zambia would be required, by 2007, to develop a
   national sentinel surveillance system to report annually on HIV incidence
   rates so as to measure the overall effect on the pandemic of national
   HIV/AIDS prevention and mitigation programs. The standard indicator for
   this measurement, according to the draft guidance, would be HIV prevalence
   rates for 15-24 year olds. USAID/Zambia expects to have a surveillance
   system in place before the 2007 deadline.

•	 The second level would require the Mission to conduct standardized national
   sexual behavior surveys every 3-5 years, beginning in 2001. USAID/Zambia
   has already conducted the Zambia Sexual Behavior Survey in 1998 and 2000
   and will continue the survey every two years. Standard indicators proposed
   in the draft guidance for this area are “number of sexual partners" and
   "condom use with last non-regular partner.” The Mission is presently using
   one of the two standard indicators (condom use with last non-regular partner)
   as an indicator and has the necessary data from the survey to report on the
   second.

•	 At the third level, Missions would be required to report annually, not only
   on trends at the national level - which may or may not directly reflect
   USAID-funded activities - but on progress toward implementing USAID's

                                                                              17
                       HIV/AIDS programs and increasing the proportion of the target population
                       covered by these programs. The draft guidance lists seven standard
                       indicators that missions might use to measure progress in selected program
                       areas. USAID/Zambia presently is using two of the standard indicators
                       (total condoms sold and percent of STI patients treated according to
                       national standards). The Mission is also formulating other indicators for its
                       newer programs in the areas of voluntary counseling and testing, orphans
                       and vulnerable children, and mother-to-child transmission. These
                       indicators are in line with the standard indicators proposed by the draft
                       guidance for these areas.

                 In short, USAID/Zambia appears to be well on its way to meeting requirements
                 for collecting all three levels of data anticipated by the draft guidance. A
                 national sentinel surveillance system should be in place before the 2007
                 deadline, a biennial sexual behavior survey required by 2001 has been in place
                 since 1998, and standard indicators either are being used or are being adopted
                 to monitor the progress of USAID-funded activities.




Other Matters
   During our review of sales data for condoms sold under the social marketing
                 program, we noted that a significant portion of condoms and other social
                 marketing products were sold on credit, and the accounts receivable were not
                 collected in a timely manner. Sales of condoms and other health products, such
                 as mosquito nets and water purification kits, represent an integral part of
                 USAID/Zambia’s social marketing program. In February 2001, sales of these
                 products totaled 258.8 million Kwacha5 ($89,875). Approximately 83 percent
                 of those sales were on credit. Accumulated overdue accounts receivable as of
                 that month totaled $95,513, of which 60.7 percent were more than 90 days
                 overdue. At the time of our audit, the NGO managing the program was in the
                 process of instituting measures to implement a more aggressive approach to the
                 debt collection process. Since the proceeds from these sales are used to
                 partially cover operational costs, the untimely receipt or non-payment of these
                 proceeds will result in reduced local funding available for the program. We
                 believe that the accumulation of large overdue balances may increase the
                 likelihood of credit sales becoming uncollectible and may also create a
                 perception that products, such as condoms, can be obtained under the program
                 for free. This may lead to abuse that could undermine the objectives of the
                 program. As a result, we suggest that USAID/Zambia closely monitor progress
                 achieved in reducing these overdue accounts receivable balances.




                 5
                     1 U.S. Dollar = Approximately 2,880 Zambian Kwachas

                                                                                                   18
Management       In response to Recommendation No.1.1, in which we recommended that
Comments and     USAID/Zambia perform and document data quality assessments for the
Our Evaluation   indicator “Number of Maximum Brand Condoms Sold,” Mission management
                 agreed that data quality assessments should be performed and said they will do
                 so by sampling invoices and computerized records at the Society for Family
                 Health. In Recommendation No. 1.1, we also recommended that
                 USAID/Zambia modify its Performance Monitoring Plan (PMP) to describe
                 actions USAID/Zambia will take to assess data quality for all HIV/AIDS
                 indicators. However, the Mission’s response did not address this issue. The
                 PMP, as stated in the Automated Directives System (ADS), is the cornerstone
                 of the Strategic Objective Team’s performance management system.
                 According to the ADS, the PMP must, at a minimum, describe the quality
                 assessment procedures that will be used to verify and validate the measured
                 values of actual performance. Therefore, we do not consider Recommendation
                 No. 1.1 to have received a management decision. We request that management
                 advise us within 30 days as to how and when it intends to address the PMP
                 portion of Recommendation No. 1.1.

                 In Recommendation No. 1.2 we recommended that USAID/Zambia perform
                 data quality assessments for all other HIV/AIDS indicators and maintain
                 documentation of such assessments in the Mission’s files. The Mission agreed
                 that data quality assessments should be performed and documented. However,
                 Mission management requested that the Inspector General clarify the
                 recommendation, since in management’s opinion, the ADS only requires
                 assessments for those indicators included in the R4 report. Although the ADS,
                 as currently written, is not entirely clear on this issue, data quality assessments
                 are an important management control in ensuring that reported results are
                 reliable. The OIG believes that missions should perform data quality
                 assessments on all indicators included in the PMP. Consequently, the OIG is
                 recommending in another audit report, that USAID revise its ADS to clearly
                 state that assessment of indicators at inception, and their reassessment at least
                 every three years thereafter, must apply to all indicators used to measure
                 USAID performance, not simply to indicators reported in the R4s.6
                 Meanwhile, until we receive agreement by the Mission, with a proposed
                 timetable, to perform data quality assessments for all HIV/AIDS indicators, we
                 do not consider Recommendation 1.2 to have received a management decision.
                 We request that management advise us within 30 days as to how and when it
                 intends to address Recommendation No. 1.2.

                 Concerning the subject noted in the Other Matters section of our report, during
                 our audit work we determined that a significant balance of overdue accounts
                 6
                  See Recommendation No. 2 in our draft report, issued August 21, 2001 on the Performance
                 Monitoring for Indicators Appearing in Selected USAID Operating Units’ Results Review and
                 Resource Request Reports.

                                                                                                        19
receivable had resulted from USAID/Zambia’s social marketing program. To
correct this problem, we originally included Recommendation No. 2 in our
draft report which recommended that USAID/Zambia obtain an independent
confirmation of accounts receivable for the social marketing program. Based
upon management’s comments to our draft report, and further deliberation, we
decided to eliminate Recommendation No. 2 from this final report. However
we suggest that USAID/Zambia closely monitor progress achieved in reducing
the overdue accounts receivable balances.

In its response to the draft report, management mentioned that the OIG did not
provide enough information regarding the achievements in USAID’s
HIV/AIDS program in Zambia. Consequently, we have added text under the
second objective on pages 14 and 15 that addresses a reduction in prevalence
rates and behavioral changes. In addition, management believed that the report
should have provided additional discussion of the positive findings that
appeared in Appendix IV. We noted in both Appendix IV and the first two
paragraphs under the first objective on page 6 that USAID/Zambia generally
monitored performance of its HIV/AIDS program in accordance with USAID’s
policies and listed the individual elements that had been performed in
accordance with USAID guidelines. We also stated that the Mission used
other monitoring tools such as independent surveys and reports as a further
check of data consistency and that Mission staff were aware of the data quality
assessment procedures the contractor used in performing the Zambia Sexual
Behavior Survey and preparing the resulting report.




                                                                            20
                                                                                    Appendix I

Scope and     Scope
Methodology
              The Performance Audits Division of the Office of Inspector General conducted
              this audit in accordance with generally accepted government auditing
              standards. The purpose of the audit was to determine: (1) if USAID/Zambia
              was monitoring performance of its HIV/AIDS program in accordance with
              ADS guidance, (2) if USAID/Zambia is achieving intended results from its
              HIV/AIDS programs, and (3) the status of efforts to improve reporting on the
              results of the Mission's HIV/AIDS programs. The audit covered all three
              HIV/AIDS indicators in USAID/Zambia’s performance monitoring plan.
              Determination as to whether intended results had been achieved was based on
              the fiscal year 2000 results. In evaluating for intended results we recognized
              that in many cases other entities−as well as the host country−also participated
              in achieving these results. Fieldwork was conducted at USAID/Zambia in
              Lusaka, and in Livingston, Zambia between March 26 and April 18, 2001.

              We used performance results reported in the Zambia Sexual Behavior Survey
              (ZSBS) to measure results for the Condom Use and STI Management and
              Treatment indicators, and the Society for Family Health (SFH) provided data
              for Condom Sales results. The ZSBS was conducted by a well-known and
              highly regarded entity, and we relied upon their controls, and statements of
              Mission personnel’s involvement, to ensure reliable data. The Mission relied
              upon SFH’s internal reviews and reconciliation procedures to ensure data
              reliability.

              Our review of management controls focused on USAID/Zambia’s Performance
              Monitoring Plan and how well the Mission complied with USAID, OMB, and
              GAO policies and guidance.

              Methodology

              To answer the first audit objective, we reviewed the Mission’s Performance
              Monitoring Plan and compared it to the requirements set forth in USAID's
              Automated Directives System. We determined if data quality assessments
              were completed, baselines were established, and if data agreed to source
              documents. We also obtained information as to what other methods for
              monitoring HIV/AIDS program performance were being used by the Mission.
              To answer the second objective, we analyzed planned and actual data for the
              indicators presented in the Mission's performance monitoring plan. Actual
              data were traced to source documents. For condom sales, we reviewed sales
              data - including data on accounts receivable. To answer the third objective, we
              reviewed baseline data and targets and compared actual data to targets which
              the Mission had set. We also reviewed USAID's “Handbook of Indicators for

                                                                                           21
HIV/AIDS/STI Programs,” “Monitoring and Evaluation Guidance” USAID’s
Expanded Response to the Global HIV/AIDS Pandemic (draft dated February
2001), and the status of the Mission's implementation of this guidance. For all
the above efforts, we reviewed applicable Federal and USAID regulations and
guidance, interviewed Mission officials and reviewed Mission documents;
interviewed project officials and reviewed project documents; interviewed
program recipients; and visited program sites.

We traveled to Livingston, Zambia and visited USAID-funded programs that
included the cross-border initiative, and programs for orphans7 and vulnerable
children. The cross-border initiative is a project that targets high-risk groups
(truck drivers and sex workers) at border crossings and sites with high
commercial traffic. Livingston is one of six Zambian cities included in the
program. We also visited a facility that works with orphans and vulnerable
children in a rural community and toured a community elementary school and
several small farms that were operated by orphans and families caring for
orphans.

In assessing accuracy, we used two materiality thresholds. First, for transcription
error, we used an accuracy threshold of plus or minus one percent. Second, for
computation accuracy we used an accuracy threshold of plus or minus five
percent.




7
  Children without parents are not considered “orphans” in Zambia. The community structure
accepts children that lost parents into the homes of family members and friends. USAID
assists community organizations by providing seed and fertilizer to families in order to
encourage economic sustainability.

                                                                                        22
                                                                                                   Appendix II


Management

Comments:



                                                                  August 13, 2001

MEMORANDUM

TO: Division Director, IG/A/PA, Dianne L. Rawl

FROM: Acting Mission Director, USAID/Zambia, Robert Clay

SUBJECT: Reply to the Audit of USAID/Zambia’s Monitoring of the Performance of Its HIV/AIDS Program
(Report No. 9-611-01-XXX-P)

Thank you for this opportunity to reply to the Inspector General’s “Draft Report of the USAID/Zambia’s
Monitoring of the Performance of Its HIV/AIDS Program.” We understand that these comments will be
included in their entirety in Appendix II of the final report.

Overall, we felt that the report missed an opportunity to give a balanced view of the HIV/AIDS program here
in Zambia. Most of the report was focused on one area of performance monitoring controls, data quality
assessments, and did not address the performance in the other nine control areas. For example, we do not
understand why the findings noted in Appendix IV, “Summary of USAID/Zambia’s Performance Monitoring
Controls” were not further described. This table shows that positive findings were made in each area of
performance monitoring controls except for the area of data quality assessments. And even here, as the report
states, for two indicators these assessments were carried out but simply not documented. The text in the main
document spends four pages on data verification, to the exclusion of the other critical areas of control. We
request that more discussion of these positive findings in Appendix IV should appear in the body of the text.

On the issue of data verification, USAID/Zambia uses internationally established surveys to collect and
analysis the data. These include the Demographic and Health Survey (DHS) and the Sexual Behavioral
Survey designed, carried out, analyzed and verified and reported by the Measure project and the Zambian
Central Statistical Office (CSO). High standards in survey methodology are observed. This includes
standardized training procedures, field supervision, cross-translation of questionnaires, consistency checks and
data cleaning, and review of preliminary reports.

To help provide more balance to the report, we suggest adding some of the major achievements in HIV/AIDS
that have happened here in Zambia to the background section. These results were only possible because of the
strong monitoring of performance that the program has developed. These results include:

•	 In Lusaka, HIV prevalence among 15 to 19 year olds dropped from 28% in 1993 to 15% in 1998. The
   decline is equivalent to a 42 percent reduction in prevalence. This trend was also found in other urban
   centers and to a lesser extent in some rural areas. An international technical team from UNAIDS/Geneva
   verified this data.


                                                                                                              23
•	 Further analysis has shown that the decline in prevalence in urban areas extends to the 20-24 age
   groups among antenatal clinic (ANC) clients. In the general urban population, the decline was
   significant for women aged 15-29 years, from 28% to 24%.

•	 The analysis also shows that the proportion of urban men aged 15-19 reporting any sexual activity
   over the previous 12 months declined from 47% to 23%, while the proportion with two or more sexual
   partners fell from 52% to 38%.

•	 The Zambia Sexual Behavior Survey was conducted in 1998 and again in 2000. These data show that
   condom use among men and women with non-regular partners increased significantly between 1998
   and 2000: from 33% to 40% (men) and 24% to 34% (women). In addition, there was a significant
   decline in the proportion of men reporting a non-regular partner from 30% to 23%.

Recommendation No. 1.1 –USAID/Zambia agrees that data quality assessment for “Number of Maximum
Brand Condoms Sold” should be performed. We will be doing a sampling of invoices and computerized
records at the Society for Family Health (SFH) to ensure consistency. We do feel that SFH has a rigorous
system in place that was recently upgraded (as acknowledged on page 9 of the report), so we have a high
level of confidence in this monitoring system.

Recommendation No. 1.2 – Although we agree we should perform and document data quality assessments,
it is unclear exactly what actions the Inspector General recommends. As stated in the audit report, the
ADS only requires assessment for those indicators in the R4 report. This recommendation implies all
HIV/AIDS indicators. If the issue is more from a guidance and policy standpoint, rather than specific
performance, we would appreciate this clarification in the recommendation.

Recommendation No. 2 – This recommendation does not seem to be related to the audit objective “Is
USAID/Zambia achieving intended results from its HIVAIDS program?” USAID/Zambia does not have
any results concerned with credit sales, or the collection thereof, and it does not appear from your report
that any evidence of abuse or illegal acts involving the credit sales was found that would require you to
include them in the audit report. We believe this topic could be better addressed in a Management Letter.
Therefore, we request that this finding and recommendation be taken out of the audit report.




                                                                                                          24
                                                                                         Appendix III

Rapid Scale-Up and Intensive Focus Countries

•	 Rapid Scale-Up Countries are defined as countries that will receive a significant increase in
   resources to achieve measurable impact within one-to-two years. This will result in an extremely
   rapid scaling up of prevention programs and enhancement of care and support activities. Rapid
   Scale-Up countries include:

   Cambodia         Kenya        Uganda        Zambia

•	 Intensive Focus Countries are defined as countries where resources will be increased and targeted
   to reduce prevalence rates (or keep prevalence low in low prevalence countries), to reduce HIV
   transmission from mother to infant and to increase support services for people (including
   children) living with and affected by AIDS within three-to-five years. Intensive Focus Countries
   include:

   Ethiopia                          Nigeria                       Brazil

   Ghana                             Rwanda                        India

   Malawi                            Senegal                       Russia

   Mozambique                        South Africa

   Namibia                           Tanzania


•	 Basic Countries are defined as countries that USAID will support host country efforts to control
   the pandemic. USAID programs will continue to provide assistance, focusing on targeted
   interventions for populations who engage in high-risk behavior. In these countries, there will be
   an increased emphasis on maintaining credible surveillance systems in order to monitor HIV
   trends and allow timely warning of impending concentrated epidemics of HIV. In addition,
   USAID will assist country institutions to identify additional sources of funding to expand
   programming.




                                                                                                   25
                                                                                                                                            Appendix IV

SUMMARY OF USAID/ZAMBIA’S PERFORMANCE MONITORING CONTROLS

                                                 Performance Monitoring Plan
                1.           2.             3.              4.            5.              6.            7.           8.           9.           10.               11.
 Indicator
             Indicator     Data       Data Collection     Data       Responsibility      Data        Quality        Data       Baseline       Data       Other Means of
             Precisely    Sources        Method         Collection     Assigned       Limitations   Assessment    Quality     Established    Agrees        Monitoring
              Defined    Identified     Described       Schedule                      Disclosed*    Procedures   Assessment                    To     (If yes, indicate type)
                                                        Specified                                   Described*    Done**                     Source

 Condom        Yes          Yes            Yes             Yes             Yes           Yes           No           No           Yes          Yes         Yes (External
  Sales                                                                                                                                                   Evaluations)


 Condom        Yes          Yes            Yes             Yes             Yes           Yes           No          No***         Yes          Yes        Yes (External
   Use                                                                                                                                                  Studies/Reports)


   STI         Yes          Yes            Yes             Yes             Yes           Yes           No          No***         Yes          Yes              N/A
Management



    *Note that these requirements were added to the ADS as of September 1, 2000, and must be implemented starting June 1, 2001.

    **Per the ADS data quality assessments are required for indicators used to report progress in the annual Results Review and

    Resource Request (R4) report, and for data included in special reports to Congress or other oversight agencies, such as annual

    HIV/AIDS or micro-enterprise reports.

    ***Mission staff indicated that they performed data quality assessments. However, they did not include the results of their

    actions in Mission files.





                                                                                                                                                                26
